No. 20-542
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner,
v.
KATHY BOOCKVAR, SECRETARY OF PENNSYLVANIA,
ET AL., Respondents.
____________________
On Petition for a Writ of Certiorari to the
Supreme Court of Pennsylvania
____________________
Brief Amicus Curiae of
Citizens United,
Citizens United Foundation, and
The Presidential Coalition, LLC
in Support of Petitioner
____________________
MICHAEL BOOS
CITIZENS UNITED
1006 Penn. Ave., SE
Washington, DC 20003

*Counsel of Record

WILLIAM J. OLSON*
JEREMIAH L. MORGAN
HERBERT W. TITUS
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
November 25, 2020

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT
I.

THE PENNSYLVANIA SUPREME COURT’S
ORDER, USURPING THE AUTHORITY TO SET
THE TIMES AND MANNER OF FEDERAL
ELECTIONS, REQUIRES REVIEW . . . . . . . . . . . . . 4
A.

The Partisan Push for Risky
Mail-In Ballots . . . . . . . . . . . . . . . . . . . . . 4

B.

The Supreme Court’s Order Amended
Act 77 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

C.

The Postal Service Delay Rationale . . . . . 9

D.

The COVID-19 Rationale Was Neither
Developed Nor Persuasive . . . . . . . . . . . 14

II. THE PENNSYLVANIA SUPREME COURT
DECISION TO EXTEND THE DEADLINE TO
RECEIVE BALLOTS VIOLATES THE FEDERAL
STATUTORY SCHEME . . . . . . . . . . . . . . . . . . . . 14
III. THE PETITION SHOULD BE GRANTED BECAUSE
THE ISSUES RAISED HERE AFFECT MANY
OTHER STATES . . . . . . . . . . . . . . . . . . . . . . . . . 20

ii
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Article I, Section 4 . . . . . . . . . . . . . . . . . . . . . . 15, 21
Article II, Section 1 . . . . . . . . . . . . . . . . . . . 2, 16, 21
PENNSYLVANIA CONSTITUTION
Article I, Section 5 . . . . . . . . . . . . . . . . . . . . 3, passim
Article VII, Section 2 . . . . . . . . . . . . . . . . . . . . . . . 15
Article VII, Section 14 . . . . . . . . . . . . . . . . . . . . . . . 4
STATUTES
2 U.S.C. § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 21
2 U.S.C. § 7 . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 21
3 U.S.C. § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 21
CASES
Bognet v. Secretary Commonwealth of
Pennsylvania, 2020 U.S. App. LEXIS 35639
(3d Cir. Nov. 13, 2020) . . . . . . . . . . . . . . . . . . 21
Crossey v. Boockvar, No. 108 MM 2020
(Pa. Sept. 17, 2020) . . . . . . . . . . . . . . . . . . . 9, 13
Democratic National Committee v. Wisconsin
State Legislature, 2020 U.S. Lexis 5187
(Oct. 26, 2020) . . . . . . . . . . . . . . . . . . . . . . 19, 20
Foster v. Love, 522 U.S. 67 (1997) . . . . . . . . . . . . 19
Leser v. Garnett, 258 U.S. 130 (1922) . . . . . . . . . . . 8
Maddox v. Board of State Canvassers,
116 Mont. 217 (1944) . . . . . . . . . . . . . 17, 18, 19
MISCELLANEOUS
Building Confidence in U.S. Elections:
Report of the Commission on Federal

iv
Election Reform (Sept. 2005) . . . . . . . . . . 2, 4, 5
Y. Halon, “Barr warns Democrats ‘playing with
fire’ over ‘grossly irresponsible’ mail-in voting
push,” FoxNews (Aug. 13, 2020) . . . . . . . . . . . 6
J. R. Lott Jr., “Heed Jimmy Carter on the
Danger of Mail-In Voting,” Wall Street
Journal (Apr. 10, 2020) . . . . . . . . . . . . . . . . . . 5
E. Yu, “At IOP Talk, Eric Holder Dismisses
Fears of Voter Fraud, Warns Against Voter
Suppression,” The Chicago Maroon
(Nov. 16, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . 6

INTEREST OF THE AMICI CURIAE1
Citizens United is a nonprofit social welfare
organization, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4).
Citizens United Foundation is a nonprofit educational
and legal organization, exempt from federal income tax
under IRC section 501(c)(3).
The Presidential
Coalition, LLC is an IRC section 527 political
organization.
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.

1

It is hereby certified that counsel for Petitioner and all
Respondents have consented to the filing of this brief; that counsel
of record for all parties received notice of the intention to file this
brief at least 10 days prior to its filing; that no counsel for a party
authored this brief in whole or in part; and that no person other
than these amici curiae, their members, or their counsel made a
monetary contribution to its preparation or submission.

2
SUMMARY OF ARGUMENT
For much of the nation’s history, the manner in
which elections have been conducted has been of
interest primarily to political parties, candidates, and
the professional political class. Now, millions of
Americans are steeping themselves in the minutiae of
election processes after learning that the process can,
indeed, be hijacked, and the courts can be complicit in
that hijacking.
Particularly beginning with the National Voter
Registration Act of 1993 (the “Motor Voter Act”),
efforts have been made to change the rules governing
elections in an effort to change the outcomes of
elections. The politicization of the election process was
put on steroids in the run up to the 2020 general
election, particularly with the transformation of
absentee voting into excuse-less mail-in voting. The
Report of the Bipartisan Commission on Federal
Election Fraud in 2005 confirmed the well-known fact
that it is much easier to perform fraud with respect to
absentee ballots than with in-person voting. Yet, those
seeking to expand mail-in voting for their own political
reasons will loudly deny this fact that they know to be
true.
The Pennsylvania Supreme Court had no authority
to extend Election Day — a date set by Congress
pursuant to an express authorization in Article II,
Section 1 of the U.S. Constitution. First, it extended
Election Day by requiring ballots received after that
date to be counted. Second, it required ballots that
may have been cast after Election Day to be counted.

3
Both rulings exceed its authority. The Free and Equal
Elections Clause of the Pennsylvania Constitution
gave the Pennsylvania Supreme Court no authority to
disregard a decision which Congress has made. The
Court’s twin justifications for the extension — Postal
Service delivery and its uttering the excuse of “COVID19” — were not just constitutionally inadequate
reasons to usurp a congressional power — but they
were also factually insufficient. The Court’s reliance on
inapplicable Postal Service “service standards” was in
serious error, and its reliance on COVID-19 was more
based on incantation than analysis. Many states
accept ballots received after Election Day, and
therefore the issue should and must be decided.
These amici urge this Court to grant certiorari to
review both issues presented. The Pennsylvania
Supreme Court had no authority to change either the
manner or the time of the election, yet it did both. If
challenges such as this are not resolved by this Court,
it will leave the election process where it is now — in
the days of the Wild West, where literally hundreds of
lawyers are poised early in each even-numbered year
to fashion creative theories to bring in carefully
selected jurisdictions to have a judicial imprimatur
placed on last-minute election law changes to benefit
the litigants. There is good reason why millions of
Americans believe that the 2020 election was not
honestly conducted, and fear that each election from
now on will be even worse.

4
ARGUMENT
I.

THE PENNSYLVANIA SUPREME COURT’S
ORDER, USURPING THE AUTHORITY TO
SET THE TIMES AND MANNER OF
FEDERAL ELECTIONS, REQUIRES
REVIEW.

Act 77 was signed into law by Democrat Governor
Thomas W. Wolf on October 31, 2019, to allow
Pennsylvanians additional opportunities to vote not
previously available in that state, which had allowed
only in-person voting on Election Day and traditional
absentee voting.
Since 1957, the Pennsylvania
Constitution has specified that absentee voting is
limited to those voters whose circumstances fell under
one of four narrow justifications. See Pennsylvania
Constitution in Article VII, Section 14. That practice
was replaced with an entirely new type of excuse-less
“mail-in” voting. Nevertheless, the deadline for voting
established in Act 77 faithfully adhered to the
congressionally established “time” for conducting
federal elections — by requiring that mail-in ballots
must be received by the appropriate county officers by
8:00 PM on Election Day, November 3, 2020.
A. The Partisan Push for Risky Mail-In
Ballots.
Act 77 culminated the push for greater mail-in
voting in Pennsylvania. This law and similar laws in
other states were enacted despite the warning that
they would enhance the risk of voter fraud as detailed
in the 2005 Bipartisan Commission on Federal

5
Election Reform (chaired by former President Jimmy
Carter and former Secretary of State James A. Baker
III).
Fraud occurs in several ways. Absentee
ballots remain the largest source of
potential voter fraud. A notorious recent
case of absentee ballot fraud was Miami’s
mayoral election of 1998, and in that case, the
judge declared the election fraudulent and
called for a new election. Absentee balloting is
vulnerable to abuse in several ways:
Blank ballots mailed to the wrong address or
to large residential buildings might get
intercepted. Citizens who vote at home, at
nursing homes, at the workplace, or in church
are more susceptible to pressure, overt and
subtle, or to intimidation.
Vote buying
schemes are far more difficult to detect when
citizens vote by mail. States therefore should
reduce the risks of fraud and abuse in
absentee voting by prohibiting “third-party”
organizations, candidates, and political party
activists from handling absentee ballots.
States also should make sure that absentee
ballots received by election officials before
Election Day are kept secure until they are
opened and counted. [Building Confidence in
U.S. Elections: Report of the Commission on
Federal Election Reform (Sept. 2005), section
5.2 (emphasis added).2]
2

See generally J. R. Lott Jr.,“Heed Jimmy Carter on the Danger
of Mail-In Voting,” Wall Street Journal (Apr. 10, 2020).

6
Sounding that same note earlier this year,
Attorney General William Barr raised the red flag
about the push for greater mail-in voting, declaring it
was “grossly irresponsible” and urging that “we should
be assuring the integrity of our elections so that
government going forward would be legitimate and be
accepted as legitimate.”3
Despite, and many believe because of, its
propensity to voter fraud, many prominent Democrat
activists have pushed for no-excuse mail-in voting.
Before the November 2020 election, former Attorney
General Eric Holder “dismissed fears of widespread
voter fraud as ‘nonsense’ and warned that” voter
integrity measures such as poll watching were tactics
of voter suppression — a loaded term that has long
been used as a dog whistle by leftists to demonize
opponents by implying racist motives.4

3

Y. Halon, “Barr warns Democrats ‘playing with fire’ over
‘grossly irresponsible’ mail-in voting push,” FoxNews (Aug. 13,
2020).
4

E. Yu, “At IOP Talk, Eric Holder Dismisses Fears of Voter
Fraud, Warns Against Voter Suppression,” The Chicago Maroon
(Nov. 16, 2020).

7
B. The Supreme Court’s Order Amended Act
77.
The Pennsylvania Supreme Court felt Act 77 did
not allow sufficient time for mail-in voting and chose
to judicially amend the statute for 2020. Despite three
federal statutes establishing November 3, 2020 as
Election Day and Act 77’s clear “received-by” deadline
at 8:00 PM that same day, the court below yielded to
the demands of the Pennsylvania Democratic Party
and ordered that ballots would be counted even
though: (i) ballots were not required to be proven to be
mailed on or before Election Day; and (ii) ballots were
required to be counted even if received up to three
days after Election Day.
The court below believed itself to have vast
remedial powers under the Free and Equal Elections
Clause of the Pennsylvania Constitution (Article I,
Section 5) to address problems it perceived for voters
caused by a combination of the supposed delays in
processing and delivery of mail by the U.S. Postal
Service and the COVID-19 pandemic.
Pennsylvania electors in the November
General Election ... face a threat to their
ability to vote due to no fault of their own, but
instead due to a perfect storm combining the
dramatic increase in requested ballots due to
the COVID-19 pandemic and the inability of
the USPS to meet the delivery standards
required by the Election Code.
[Pa.
Democratic Party v. Boockvar, 2020 Pa. LEXIS
4872, *31 (Sept. 17, 2020).]

8
The court’s reliance on the Free and Equal
Elections Clause is unavailing because a state
constitutional provision can never provide the basis for
a state court to overturn the action of a state
legislature acting under authority conferred by the
U.S. Constitution. See Petition for Certiorari (“Pet.
Cert.”) at 26 n. 1. As to how presidential electors are
selected by states, the U.S. Constitution vests that
authority exclusively in state legislatures. The offices
of President and Vice President were created by the
U.S. Constitution, and when a state legislature
exercises the power to determine the manner in which
electors are chosen, that power is governed solely by
the federal Constitution. See Leser v. Garnett, 258
U.S. 130, 137 (1922) (function of state legislature in
carrying out a federal function from the U.S.
Constitution “transcends any limitations sought to be
imposed by the people of a State”).
No state
constitution, state law, or state court can alter or
constrain that grant of power.
Nevertheless, the Supreme Court of Pennsylvania
had “no hesitation in concluding that the ongoing
COVID-19 pandemic equates to a natural disaster.”
Id. at *46. Without making any specific findings, the
court opined that increased processing time of mail-in
ballots was needed “for voters who sought to avoid
exposure to the virus.” Id. at *47. None of the
rationales advanced by the court below withstands
examination.

9
C. The Postal Service Delay Rationale.
The lower court relied on a cryptic letter from the
General Counsel of the Postal Service to the
Pennsylvania Secretary of State, which contained a
few generalizations about Postal Service service
standards on which to: “conclude that the timeline
built into the Election Code cannot be met by the
USPS’s current delivery standards, regardless of
whether those delivery standards are due to recent
changes in the USPS’s logistical procedures or whether
the standards are consistent with what the General
Assembly expected when it enacted Act 77.” Id. at
*47-48.
The Pennsylvania Supreme Court majority opinion
never discussed an earlier pending case in which it
had granted review (Crossey v. Boockvar, No. 108 MM
2020 (Pa. Sept. 17, 2020)) where it had appointed a
special master to report back on that same issue of
Postal Service delays. The special master in that case
conducted evidentiary hearings and issued
Recommended Findings of Fact and Conclusions of
Law. See Petition Appendix (“Pet. App.”) at 140a.
Since those findings about Postal Service delivery
provided no support for what the court below wanted
to order, the court dismissed the Crossey case (along
with the special master’s Recommended Findings) as
moot, and the majority disregarded those findings.
Pet. Cert. at 8.
The majority’s reliance on the Postal Service
General Counsel’s letter is misplaced. That letter
stated that the service standard for First-Class Mail is

10
2-5 days — a technically accurate but irrelevant fact.
First, the term “service standards” is a term of art
within the Postal Service, meaning the goals by which
the mail system is set to deliver mail within the
network. To be sure, from any point in Pennsylvania
to anywhere else in the United States (including
territories), the First-Class mail service standard is 25 days. However, within Pennsylvania, the service
standard is 2-3 days.5
For example, as shown in the following map, for
mail originating (i.e., entered into the mail system) in
Pittsburgh, the Postal Service has a 2-day service
standard to most of Pennsylvania (shown in orange)
and a 3-day service standard to a few remote parts of
the Commonwealth, as well as the rest of the
continental United States (yellow). There is a 4-day
service standard to Hawaii and parts of Alaska and
Puerto Rico (light blue). The only 5-day service
standard referenced is to Guam (dark blue).

5

See https://postalpro.usps.com/ppro-tools/service-standardsmaps.

11

Any resident of any county in Pennsylvania requesting
a ballot from that county’s elections official will always
be within a 2-day First-Class Mail service area.
Likewise, for every area in which a ballot is mailed to
the voter, the mailings will have a 2-day First-Class
Mail service standard.6
The same is true for
submitting completed ballots to county election
officials. Thus, the court below misused the General
Counsel’s letter describing “service standards.”
6

Although partisan attacks have been made against the
Postmaster General for slowing delivery, it was the Obama
Administration which degraded next-day delivery standards
which long had existed for much of Pennsylvania. See USPS
D e l i v e r y Standards and Statistics Fact S h e e t ,
https://about.usps.com/news/electronicpress-kits/our-future-network/ofn-usps-delivery-standards-andstatistics-fact-sheet.htm.

12
Accordingly, the court below erred in concluding
that “if a county board were to process and mail a
ballot the next day by First Class Mail ... according to
the delivery standards of the USPS, the voter might
not receive the ballot until five days later....” Pa.
Democratic Party at *33. Even Justice Donohue’s
concurring and dissenting opinion made the same
mistake of relying on the General Counsel’s letter’s
broad statement regarding nationwide service
standards. That opinion analyzed the impact of 2-5
day service standards and concluded that:
[t]he only way the current statutory
framework works is if the ballot is delivered by
USPS in two days, the voter immediately
returns the ballot, and it is received by the
board of elections within three days. All other
voters who comply with the statutory
framework are disenfranchised, even though
they complied with the statute. [Id. at *108.]
Had the court evaluated actual, applicable service
standards that applied to local delivery, it should have
found that the time period established by the state
legislature in Act 77 was workable.
However, the court then made a second mistake in
basing its decision on service standards rather than on
service performance. “Service performance is
defined by the Postal Service from acceptance of a
mailpiece into our system through delivery, measured

13
against published service standards.”7 The special
master’s Recommendations in the Crossey case
correctly rejected the “mismatch” claim based upon the
General Counsel’s letter, and instead correctly “found
that USPS’s ‘performance’ in Pennsylvania ‘exceeds
the national average’ upon which USPS’s delivery
standards are based.” Pet. Cert. at 10. Thus, to reach
its desired result, the court found it necessary to
ignore the special master’s report, dismiss the case in
which a conflicting factual record had been developed
earlier at its request, and rely exclusively on the USPS
General Counsel’s misleading two-page letter.8 Pet.
Cert. 8, 14, 29.

7

See, e.g., https://about.usps.com/newsroom/national-releases/
2020/1023-usps-issues-new-service-performance-report-for-theweek-of-oct-10.htm.
8

The concurring opinion of Justice Wecht fared worse, relying on
recent congressional testimony of Postmaster General Louis
DeJoy regarding COVID-related postal delays, and then claiming
that there was no “materially contradictory evidence.” Pa.
Democratic Party at *93. The dissenting opinion of Justice
Donohue likewise was selective in its evidence, focusing on the
General Counsel’s letter and noting that it “was accepted into
evidence in Crossey and was further supported by the testimony
of the Deputy Postmaster [General]” — but failed to note that the
special master in Crossey found a different expert witness’s
testimony “more credible and persuasive than those of” the
Deputy Postmaster General. Pet. App. at 108a, 168a. The former
Deputy Postmaster General whose testimony was relied upon by
Justice Donohue previously served as the Democrat staff director
of the House Committee overseeing the Postal Service, carrying
no relevant skills in the logistics industry from Capitol Hill to
L’Enfant Plaza, thus requiring the Postal Service to remove the
Deputy Postmaster General position from the line of succession in
the case of a vacancy or disability of the Postmaster General.

14
The erroneous factual observations about mail
delivery demonstrate the arbitrariness of the
Pennsylvania Supreme Court’s results-driven analysis.
D. The COVID-19 Rationale Was Neither
Developed Nor Persuasive.
The court below failed to conduct any meaningful
analysis on its own of the threat posed by COVID-19.
When the Pennsylvania Supreme Court issued its
decision in mid-September, positive COVID-19 cases
were mostly below 1,000 daily “cases” (i.e., positive
tests) in the entire Commonwealth of Pennsylvania.
The court below did not consider the fact that the level
of cases had remained relatively steady since May.
Additionally, the number of positive COVID-19 “cases”
is directly related to the number of daily tests being
administered, which tests had been increasing.
(https://www.health.pa.gov/topics/disease/coronaviru
s/Pages/Cases.aspx.)
II. THE PENNSYLVANIA SUPREME COURT
DECISION TO EXTEND THE DEADLINE TO
RECEIVE BALLOTS VIOLATES THE
FEDERAL STATUTORY SCHEME.
Amici also urge this Court to grant review to
address the second question presented by the Petition,
namely, whether the Pennsylvania Supreme Court’s
extension of the deadline to receive votes for federal
office and presumption concerning postmarks violates
three separate federal statutes setting the date of the
election which preempted the field.

15
No federal constitutional problem existed with Act
77, as that law required that all ballots be received by
8:00 PM on the date established in federal law for the
election — November 3, 2020.9 The problem arose
with the decision of the Supreme Court to “adopt the
Secretary’s informed recommendation of a three-day
extension of the absentee and mail-in ballot receivedby deadline to ... reduce voter disenfranchisement”
(Pa. Democratic Party at *49) and its presumption that
ballots received within three days were mailed on or
before Election Day.
Prior to extending the deadline, the court opinion
summarized the Republican Party’s argument that
“moving the received-by deadline until after Election
Day would undermine the federal designation of a
uniform Election Day, as set forth in three federal
statutes” (Pa. Democratic Party at *40-41) and briefly
summarized those statutes. However, there followed
no analysis whatsoever explaining how the
Pennsylvania court, after recognizing these statutes as
having preempted the field, could decide to ignore
what Congress had decreed.
Because of the importance of this issue, we briefly
review those three statutes here. With respect to
elections to the House of Representatives, Article I,
Section 4 of the U.S. Constitution states that, the
States shall set the rules for the “Times, Places and
Manner of holding Elections,” but that Congress may
alter the rules for the Times and Manner (but not

9

See also Pennsylvania Constitution, Article VII, Section 2.

16
the Places). (Emphasis added.) Congress exercised
that authority when it set the date for election of
Representatives as the Tuesday after the first Monday
in November in even-numbered years (e.g., November
3 of this year). See 2 U.S.C. § 7. Congress set the date
for the election of Senators on the same day as for
Representatives. See 2 U.S.C. § 1. With respect to the
process for the selection of the third category of elected
federal officials — Presidential Electors — Article II,
Section 1 established a somewhat different system.
The Constitution vested in State legislatures the
plenary authority to choose the “Manner” in which
Presidential Electors are selected, without the ability
of Congress to override that selection. However, again,
Congress was given the exclusive authority to
“determine the Time of chusing the Electors....” Art.
II, Sec. 1, cl. 4. Congress acted on this grant of
authority and set the Time for appointing electors on
the same day as for House and Senate elections — but
only once every four years. See 3 U.S.C. § 1.
There is no confusion in these statutes as to what
constitutes Election Day in the federal system. In
setting the time of the election of House members,
Senators, and Presidential Electors, Congress was
acting pursuant to an express constitutional grant of
authority. Accordingly, no state, no state governor, no
state legislature, and certainly no state court has the
authority to alter that Election Day. After recognizing
the Election Day federal statutes, the Pennsylvania
court went on to discuss interesting but irrelevant
issues, including whether there was ambiguity in the
state statute as to the deadline for receiving votes
(concluding there wasn’t) and whether the state

17
statutory deadline was facially unconstitutional
(concluding it wasn’t).
The decision of the Pennsylvania Supreme Court
which effectively moved Election Day to a date three
days later was based solely on pragmatic
considerations — whether the legislature gave enough
time to voters — saying that “a balance must be
struck,” and demonstrating again that courts love
judge-empowering balancing tests, it concluded that
the legislature “enacted an extremely condensed
timeline...” Pa. Democratic Party at *45, *48. In other
words, the legislature got it wrong. And, the Supreme
Court believed the “Free and Equal Elections Clause
of the Pennsylvania Constitution” (Article I, Section 5)
gave it the authority to “‘craft meaningful remedies
when required.’” Id. at *90, *92 (citation omitted).
If the court had carefully considered the real issue
— whether the state court has the constitutional
authority to extend Election Day — it could not have
done what it did. And so it ignored the federal
constitutional constraint, changed the issue to a state
constitutional concern, and ruled as it willed.
Other state courts have not treated Election Day
as merely a suggestion, but rather than a fixed date.
The Montana Supreme Court considered the
constitutionality of a state law which provided for the
counting of ballots of military members received after
Election Day. Maddox v. Board of State Canvassers,
116 Mont. 217 (1944). There, the court concluded that

18
the
[state]
legislature
could
not
constitutionally have extended beyond the
statutory election day the time for depositing
ballots, so far as presidential electors are
concerned.
Being within the powers expressly ceded to
the limited federal sovereignty by the people of
the United States, and having been exercised
by the Congress, it is apparent that the states
have no power to interfere. [Id. at *222
(emphasis added).]
The Montana Court explained the historic
meaning of the unusual term “cast” ballots:
Nothing short of the delivery of the ballot to
the election officials for deposit in the ballot
box constitutes casting the ballot, which fact
was unmistakable so long as the ballot
continued to be, as originally, a ball or marble
or other marker which was “cast” or
deposited in an official receptacle or
custody....
Thus Webster’s New International
Dictionary defines “cast” as “to deposit (a
ballot) formally or officially.” It is not the
marking but the depositing of the ballot
in the custody of the election officials
which constitutes casting the ballot or vote.
Obviously, unless it reaches the officials it
is never cast at all, whether or not it is
marked for any candidate, or forwarded by
mail or otherwise. The fact that the ballot has
to be marked before its casting can indicate

19
the voter’s intent, should not obscure the fact
that it is still of no effect until it is deposited
with the election officials, by whom the will of
the voters must be ascertained and made
effective. [Id. at *223-*24 (emphasis added).]
The Montana court then correctly concluded that
a state law allowing post-Election Day ballots to be
counted conflicted with the Election Day as established
by Congress.
Therefore in so far as [state law] purports
to extend beyond the election day the time
within which voters’ ballots may be received
by the election officials for the election of
presidential electors, it is in conflict with the
constitutional congressional Act which
requires the electing to be done on election
day. It is, accordingly, unconstitutional to that
extent. A diligent search has disclosed no
authorities nor precedents to the contrary.
[Id. at *224 (emphasis added).]
This Court, in Foster v. Love, 522 U.S. 67 (1997)
(discussed in Pet. Cert. at 30-32), determined that a
State statute which could have resulted in a federal
election being held on a different day than that set by
Congress was invalid.
This Court recently refused to overturn the
Seventh Circuit’s stay of a district court injunction in
Democratic National Committee v. Wisconsin State
Legislature, 2020 U.S. LEXIS 5187 (Oct. 26, 2020).
The Seventh Circuit and the three concurring opinions

20
from this Court addressed whether a federal court
could encroach upon the state legislature’s authority to
set rules for the “manner” of federal elections,
determining that it could not. By preserving the
Seventh Circuit’s stay, this Court did not need to
address whether the federal court could encroach upon
Congress’s authority to set the “times” for federal
elections. The three dissenting Justices complained
that the Seventh Circuit “never even addressed the
constitutional issue.” Id. at *37. The dissent
considered the constitutional issue to be the right to
vote — not whether the district court could override
the prerogative granted to Congress by the
Constitution to determine the times for the elections.
With a flourish, the dissent stated that “protecting the
right to vote in a health crisis outweighs conforming to
a deadline created in safer days,” failing entirely to
consider whether the court had authority to alter
Election Day. Id. at *39.
III.

THE PETITION SHOULD BE GRANTED
BECAUSE THE ISSUES RAISED HERE
AFFECT MANY OTHER STATES.

The petition raises a significant constitutional
question that affects not only Pennsylvania, but also
many other states. As the petition noted, “[e]ven now,
there are numerous pending cases seeking to overturn
Election Day received-by deadlines.... This case thus
provides the perfect vehicle for this Court to address
the confusion that is mounting around the country and
resolve these important issues once and for all.” Pet.
Cert. at 35-36.

21
The U.S. Court of Appeals for the Third Circuit
recently noted — in rejecting a challenge to
Pennsylvania vote count based on the lack of standing
of the plaintiffs in that case — “[a]t least 19 other
States and the District of Columbia have post-Election
Day absentee ballot receipt deadlines.” Bognet v.
Secretary Commonwealth of Pennsylvania, 2020 U.S.
App. LEXIS 35639, *29 (3d Cir. Nov. 13, 2020). There
is a serious question about whether those 19 other
States have laws which impermissibly change the
national election day set by Congress for federal
elections in 2 U.S.C. §§ 1, 7 and 3 U.S.C. § 1.
The issue of Congress’s authority to set the time
for choosing presidential electors under Article II,
Section 1 and for elections for Congress under Article
I, Section 4 should be decided by this Court as soon as
possible.

22
CONCLUSION
For the reasons stated above, the Petition for Writ
of Certiorari should be granted.
Respectfully submitted,
MICHAEL BOOS
CITIZENS UNITED
1006 Penn. Ave., SE
Washington, DC 20003

*Counsel of Record

WILLIAM J. OLSON*
JEREMIAH L. MORGAN
HERBERT W. TITUS
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
November 25, 2020

